Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




     Child Support Enforcement
      State Disbursement Units

       State Implementation Progress




                     JUNE GIBBS BROWN
                     Inspector General

                         AUGUST 2000
                        OEI 06-00-00040
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-
452, is to protect the integrity of the Department of Health and Human Services
programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary
of program and management problems and recommends legislative, regulatory, and
operational approaches to correct them.

                        Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the
Office of Inspector General. It conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the
Congress, and the public. The inspection reports provide findings and
recommendations on the efficiency, vulnerability, and effectiveness of departmental
programs.

OEI's Region VI prepared this report under the direction of Chester B. Slaughter,
Regional Inspector General and Judith V. Tyler, Deputy Regional Inspector General.

Principal OEI staff included:

DALLAS                                      HEADQUARTERS

Blaine Collins
                             Joan Richardson, Program Specialist

Ruth Ann Dorrill

Clark Thomas, Ph.D. 

Scott Whitaker

J’nette Oshitoye

Nancy Watts

Lisa White

Jennifer Kahende

Patricia Martin



    To obtain copies of this report, please call the Dallas Regional Office at 214-767-3310.
    Reports are also available on the World Wide Web at our home page address:

                              http://www.dhhs.gov/progorg/oei
                       EXECUTIVE SUMMARY

PURPOSE
        To describe States’ progress in implementing State Disbursement Units (SDUs), and
        share their experiences and perceptions as an informed basis for learning from one
        another and identifying opportunities for improvements.

BACKGROUND
        Requirements for Centralized State Disbursement Units: Congress requires States
        to process child support payments through centralized State Disbursement Units
        (SDUs). The primary objectives of centralization are to provide employers with a single
        location in each State to send income withholding payments, and to make payment
        processing more efficient and economical. Federal requirements specify deadlines for
        SDU implementation and standards for operations, and outline areas of State
        discretion, such as the option to have private contractors operate SDUs. To meet these
        requirements, several States had to make relatively minor changes to their previous
        centralized systems. In other States which had traditionally processed payments
        through local child support offices or clerks of court, centralization of payment
        processing was a major endeavor.

        Concerns About Implementation: In December 1999, the Office of Inspector General
        (OIG) received a letter from Congressman Bob Clement of Tennessee expressing
        concern about the effectiveness of his State’s new system for collecting and disbursing
        child support payments. In response, the OIG initiated a study of the Tennessee SDU,
        reviewing 16 cases that experienced delayed payments under the new system.
        Additionally, we surveyed all States and undertook an in-depth review of SDU
        implementation in six States.

        Methodology: Information in this report comes primarily from survey responses of
        SDU program managers from all States. These respondents provided details about the
        current status of SDU implementation, problems they encountered in developing and
        operating SDUs, strategies they employed to ensure quality SDU performance, and
        their assessment of current operations. We did not verify the accuracy of their
        responses. Rather, our goal was to present the self-reported experiences and
        perspectives of key players who are implementing and operating the centralized unit in
        order to facilitate their learning from one another.

FINDINGS
Thirty-eight States Report They Have Fully Implemented the Federal Law to
Centralize Payment Processing of Most Child Support Payments

        Thirty-eight States and territories report fully implementing their SDU by April, 2000.
        Three States have Federal waivers to link their local disbursements units. All but one of
        the 12 remaining States report plans to complete their SDU implementation by 2001.



SDUs: State Implementation Progress             i                                    OEI 06-00-00040
        OCSE granted two of these States extensions to their SDU implementation deadline
        and gave the remaining 10 States an opportunity to request an alternative penalty by
        submitting a “corrective compliance plan” and demonstrating a good faith effort to
        implement their SDU.

        Twenty-five States implemented, or plan to implement, their SDU incrementally, a
        strategy that allows program managers to resolve startup problems and make technical
        changes without affecting a large number of cases. While almost half of State child
        support agencies directly operate their SDUs, many contract with private companies
        and clerks of court to perform some or all SDU functions. While the Federal law
        requires only that SDUs process payments for public assistance cases and cases with
        income withholding ordered on or after January 1, 1994, 32 States will process
        payments from all types of child support cases through their SDU. In order to monitor
        the effectiveness of their SDU, most States track the timeliness of disbursements and
        the extent of undistributed payments.

States Experienced a Number of Problems in Implementation, But Managers Report The
Severity of Most Problems Has Diminished Over Time

        Most SDUs encountered problems when they first centralized payment processing.
        While some problems remain as continuing operational concerns, the severity of many
        of these problems have diminished subsequent to startup periods. SDU managers
        report they initially had problems getting payments mailed to the SDU and that many
        payers either continued to send payments to local sites instead of new SDU post office
        boxes, or failed to include information necessary for identifying the cases to which
        payments should be applied. In some States, when payments contained insufficient
        information or were mailed to the wrong location, disbursements were significantly
        delayed.

        Managers also report problems negotiating with contractors, and coordinating with local
        child support staff and clerks of court who had previously processed payments locally.
        For example, many SDUs had to convert local case information to central databases
        prior to SDU implementation, requiring a good deal of collaboration with local staff and
        clerks of court. Managers in some Sta9tes report these efforts were often problematic,
        resulting in payments being received by the SDU for which it had no associated case
        information. Managers also indicate difficulty in staffing their SDUs due to variable
        workloads.

A Majority of Managers Believe Their State Disbursement Units Have Improved Payment
Processing, Particularly After an Initial Startup Period

        Based on monitoring and experience, a majority of SDU managers believe their SDU
        achieves better results than previous local processes. Managers cite general
        improvements in payment processing speed, service to custodial and noncustodial
        parents, and in easing the burden on employers. However, several States report
        improvements were not realized until after an initial startup period. Despite the positive
        perceptions of the majority of managers, others report their SDU has made little
        difference or even had negative effects on some program functions.




SDUs: State Implementation Progress              ii                                   OEI 06-00-00040
AGENCY COMMENTS

        The Administration for Children and Families (ACF) agreed with the findings and
        conclusions presented in these two reports. ACF concurred with each of the
        recommendations directed to OCSE and recounted its efforts to assist States with SDU
        implementation. ACF also expressed a desire to collaborate with the OIG in quickly
        disseminating to States the information provided in these reports. ACF comments are
        provided in their entirety in Appendix A.




SDUs: State Implementation Progress           iii                               OEI 06-00-00040
               TABLE              OF        CONTENTS

                                                       PAGE


EXECUTIVE SUMMARY                                          i


INTRODUCTION                                              1


FINDINGS

      SDU Operations

            Current Implementation Status                 3

            Use of Incremental Implementation             4

            Entities Operating SDUs                       4

            SDU Caseloads                                 5

            Parental Access to Payment Information        6

            Monitoring SDUs                               6


      Challenges to Effective SDU Operations

            Coordinating with Employers and Parents       7

            Coordinating with Other Entities              8

            Poorly Labeled Payments                       9

            Lack of Automated Case Information            9

            Payments Mailed to the Wrong Location         9

            Customer Service Demands                     10

            Staffing Issues                              11


      State Assessment of SDUs

            Overall Assessment                           11

            Payment Processing Speed                     11

            Service to Parents                           12

            Burden on Employers                          13

            Undistributed Payments                       13


SUMMARY                                                  13


AGENCY COMMENTS                                          14


ENDNOTES                                                 15


APPENDICES
     A: Coordination and Operational Problems 
          A-1
     B: ACF Comments
                                    B-1
                                 INTRODUCTION

PURPOSE
        To describe States’ progress in implementing State Disbursement Units (SDUs), and
        share their experiences and perceptions as an informed basis for learning from one
        another and identifying opportunities for improvement.

BACKGROUND
        In the 1996 Personal Responsibility and Work Opportunity Reconciliation Act
        (PRWORA), Congress required States to centralize collection and disbursement of
        child support payments into State Disbursement Units (SDUs).1 The primary objectives
        of centralization are to provide employers with a single location in each State to send
        income withholding payments, and to make payment processing more efficient and
        economical. Federal law requires that States:

       !	       Implement the SDU by a Deadline of October 1, 1998 or
                (October 1, 1999 for States with Previous Clerks of Court Involvement)
       !        Provide Employers with a Single Location to Send Payments
       !        Disburse Payments Within Two (2) Business Days
       !        Process All Payments for a Specified Caseload2
                (With Discretion to Include All Cases)
       !        Provide Payment Information to Parents
       !        Operate the SDU Through a State Agency or Contractors
       !        Staff SDUs Sufficiently to Perform Required Functions
       !        Automate Procedures as Much as Feasible, Efficient, and Economical
       !        Integrate the SDU with the State’s Automated Child Support System
       !        Monitor SDU Performance

        Several States already had centralized procedures and had to make relatively minor
        changes to meet Federal requirements. In other States, however, local child support
        staff or clerks of court traditionally processed many payments, making centralization
        more challenging. Congress anticipated that some States with reliable local systems
        might be reluctant to centralize. Therefore, PRWORA allowed States to be granted a
        waiver to operate their SDU by linking local disbursement units through an automated
        information network, if the Secretary of DHHS agreed that the linked system would not
        cost more nor take more time to establish or operate than a centralized system.
        However, even when a linked system is used, Congress specified that employers must
        still be given only one location for sending payments within each State. States that
        failed to implement an SDU by their deadline, unless granted a waiver, potentially faced
        stiff penalties, though these have subsequently been reduced.3

        Federal Financial Participation (FFP) is available for administrative expenses of the
        SDU at a rate of 66 percent.4 However, States which choose to process all child


SDUs: State Implementation Progress             1                                    OEI 06-00-00040
        support payments through their SDU do not receive Federal funds for processing any
        cases not mandated by Federal law. For processing non-public assistance cases,
        SDUs are allowed, but not required, to charge parents processing fees.

        In December 1999, the Office of Inspector General (OIG) received a letter from
        Congressman Bob Clement of Tennessee expressing concern about the effectiveness
        of his State’s new system for collecting and disbursing child support payments. In
        response, the OIG initiated a study of the Tennessee SDU, reviewing 16 cases that
        experienced delayed payments under the new system. Additionally, we surveyed all
        States and undertook an in-depth review of SDU implementation in six States.

METHODOLOGY
        Information in this report comes primarily from survey responses of SDU program
        managers from all States, as well as the District of Columbia, Puerto Rico and the
        Virgin Islands.5 Additionally, we use information from interviews of key participants
        involved in SDU operations in six focus States. The six focus States we visited for on-
        site interviews were Arizona, Florida, Iowa, Minnesota, Pennsylvania, and Tennessee.
        These States were chosen to provide variety regarding when centralization occurred,
        and whether the State uses contractors or other partners in payment processing. In
        each focus State, analysts interviewed SDU program managers, SDU information
        system managers, contractor managers, and managers of staff that process payments.
        We also toured the primary SDU payment processing facility. Where appropriate, we
        also interviewed at least one representative of local entities that were responsible for
        payment processing prior to centralization.6 All data collection occurred in February,
        March, and April 2000.

        Limitations. In conducting this inspection, we did not attempt nor intend to evaluate
        SDU operations. For example, we did not try to measure the relative costs or
        efficiencies of various operational arrangements. We also did not verify the accuracy of
        State responses. Rather, this report examines the self-reported experiences and
        perceptions of key personnel who are implementing and operating SDUs.

        This study was conducted in accordance with the Quality Standards for Inspections
        issued by the President’s Council on Integrity and Efficiency.




SDUs: State Implementation Progress            2                                    OEI 06-00-00040
                                          FINDINGS

OPERATIONS OF STATE DISBURSEMENT UNITS
        To meet Federal requirements, States had to develop and implement SDUs for
        processing child support payments, as well as mechanisms to provide information to
        parents and methods for monitoring SDU activities.

Thirty-eight States Report They Have Fully Implemented the Centralized Processing of
Child Support Payments as Required by Federal Law

        As of April 2000, thirty-eight States and territories have SDUs that process payments
        for the Federally-required caseload. Eighteen of these States were already processing
        payments centrally prior to 1998, the first year in which SDU implementation was
        Federally-required (Figure 1). Another 20 States began centralized payment processing
        since 1998. Three additional States were granted a waiver which releases them from
        the Federal SDU requirements by linking local disbursements units.7 Four States have
        partially implemented their SDUs, already processing a substantial portion of the
        required payments, and the remaining eight States have not yet begun centralization.
        Most States without fully implemented SDUs, except those with waivers, expect to
        complete their SDU implementation by 2001, but one State estimates it will not
        complete implementation until 2006. OCSE granted two of these States extensions to
        their SDU implementation deadline and gave the remaining 10 States an opportunity to
        request an alternative penalty by submitting a “corrective compliance plan” and
        demonstrating a good faith effort to implement their SDU.8


                            Figure 1: State Disbursement Unit Implementation Dates
                                             (as Reported by States)


                                                 20




                                                                  11
                   9                  9



                                                                                                 3
                                                                                 1


              Before 1990       1990-97    1998 - April 2000 May 2000 - 2001    2006          Waiver


          Based on Responses from 50 States, the District of Columbia, Puerto Rico, and the Virgin Islands




SDUs: State Implementation Progress                   3                                        OEI 06-00-00040
Half of Managers Report Current or Planned Use of Incremental Implementation
Methods, Initially Processing Payments for Only a Segment of Their Caseload

        To ease startup difficulties, 25 States implemented, or plan to implement, their SDUs
        incrementally. These States have developed unique strategies, including phase-ins
        based on county, payer type, or case type. Managers report that incremental
        implementation allows SDUs to recognize and solve problems early, while affecting
        only a portion of their caseload. Incremental implementation may also help managers
        gauge payment volume for staffing purposes, and provides early performance
        information. It also allows technical staff to make modifications in State databases,
        computer software, and processing equipment as technical glitches or needed
        structural changes are identified. SDU phase-in periods have ranged from a single
        disbursement cycle (one month) to many months. Some States also operated pilot
        projects prior to beginning more widespread implementation. Pilot projects often
        involved only one large county or a handful of smaller counties, allowing managers to
        test procedures with a closely controlled set of payments prior to finalizing plans for full
        implementation.

        Other States considered and then discarded the idea of incremental implementation for
        various reasons. After securing the necessary legislative authority for their SDU and
        beginning development, managers in some States did not perceive they had enough
        time for an incremental implementation prior to their Federal deadline. Others report
        they preferred to initially implement statewide, hoping to deal with startup problems
        over a shorter, though more intense, period. Some managers also note that payers not
        included in initial phases of incremental implementation may hear of the SDU and begin
        sending payments to the centralized unit too early.

State Disbursement Units are Operated by Child Support Agencies or By Private
Contractors Who Perform Some Part of Payment Processing

        SDUs perform two primary functions: receipting, which includes receiving, posting, and
        depositing child support payments; and disbursement, which includes printing and
        mailing payments. Managers in 22 States report the child support agency performs, or
        will perform, the receipting function, and will perform the disbursement function in 35
        States (Table 1). A few of these States report having cooperative agreements with
        other State agencies, such as the State Treasury, to print and mail checks, typically
        because the other State agency already has check printing equipment and expertise.

            Table 1: CURRENT OR PLANNED ENTITIES PERFORMING MAJOR SDU FUNCTIONS

             Function          Child Support Agency                Private Companies    Clerks of Court

          Receipting                    22 (42%)                             27 (52%)       3 (6%)

          Disbursing                    35 (67%)                             14 (27%)       3 (6%)
          Percentages based on the 52 respondents answering this question.


        Most of the remaining managers report their SDUs currently contract, or plan to
        contract, with private companies to perform receipting (27 States) and disbursing (14
        States). Three private companies contract with more than one State: Lockheed Martin
        IMS (13 States); Tier Technologies (7); and System & Methods, Inc. (2). These


SDUs: State Implementation Progress                           4                               OEI 06-00-00040
        companies may be awarded additional contracts by States still preparing for
        implementation. Private contractors in some States use sub-contractors to perform
        various functions, such as check printing. In three States, local clerks of court who
        performed receipting and disbursing functions prior to SDU implementation were
        awarded contracts to continue performing these functions centrally.

Thirty-two States Report Their Disbursement Units Will Process All Types of Child
Support Cases, Rather Than Only Those Required by Federal Law

        SDUs are Federally-required to process payments for a specified caseload, but have
        discretion over whether to centralize processing of payments for all child support cases.
        Thirty-two States currently process, or plan to process, payments for all case types
        through their SDU. Additionally, a few States report they process payments through
        their SDU for more cases than just those which are required, but still process some
        cases locally. For example, States may centrally process any case with an income
        withholding order, even though the SDU is only required to process cases with income
        withholding ordered after January 1, 1994. Cases that are not processed through the
        SDU are typically handled locally, as they were before SDU implementation. Federal
        funding is not available for processing cases not mandated to be handled by the SDU.
        Some States recoup at least a portion of their costs by charging fees to custodial
        parents in non-public assistance cases, regardless of whether the cases are processed
        centrally or locally.

        Managers in States processing all child support cases through their SDUs report a
        number of advantages, such as the ability to provide employers with a single address to
        send all child support payments. They also report that processing all cases through the
        SDU avoids any need to switch cases between central and local processing, thereby
        avoiding confusion for parents and employers. Managers also maintain that centralizing
        all cases may be a more efficient use of State resources. When some cases continue
        to be processed locally, these local processors must devote resources to payment
        processing, including post office boxes, bank accounts, databases, processing
        equipment, and staff time, even though they may be handling only a fraction of the
        volume they were before SDU implementation. Some managers argue that since
        continued local processing limits the number of payments processed centrally, it fails to
        take full advantage of efficiencies and cost savings achievable through highly-
        automated SDUs.

Some States Do Not Plan to Centralize All Cases, Primarily Because They Lack Funding
for the Conversion or Are Satisfied With Their Local Systems

        While Federal Financial Participation (FFP) is available to reimburse States for SDU
        expenses incurred through processing the Federally-required cases, States which
        process additional cases through their SDU must bear the expense of conversion and
        processing. Although some States have discovered greater efficiencies in processing
        all payments through SDUs, others incur only minimal expense when payments are
        processed through local entities such as clerks of court. Advocates for continued local
        processing of some cases also report being reluctant to change a method that is
        already successful, considering their local jurisdictions to be more responsive to clients
        and fearing a heavy reliance on automated systems. Finally, managers point out that
        SDUs may never truly process payments for all child support cases in their State



SDUs: State Implementation Progress              5                                    OEI 06-00-00040
        because many noncustodial parents are court-ordered to pay the custodial parent
        directly, with no government processing or tracking of payments.

States Use a Number of Methods to Provide Parents With Access to Payment
Information, Primarily Relying on Telephone Contact

        In attempting to promote service to parents under a centralized system, States offer a
        number of options for accessing payment information. Almost all States (49) provide, or
        plan to provide, parents with telephone access to customer service staff (Table 2). This
        staff is often housed in a centralized customer service call center, staffed either by the
        State or a contractor. Call center staff typically answer payment questions from
        employers and local child support offices, as well as from parents. Call center staff in
        some States have access only to case payment information, but not other case
        information such as paternity or enforcement matters, and may be instructed to only
        respond to payment-related inquiries. In other States, call center staff have full access
        to caseload databases and are trained to answer multiple questions regarding case
        management, enforcement, and State policy, in addition to payment inquiries.

                    Table 2: SDU SERVICES FOR RESPONDING TO PARENTAL INQUIRIES

                                                                                 Current and     Response
                             Service to Parents                               Planned Services   Time Frame

          Speak by Telephone With Customer Service Staff                          49 (92%)       Immediate

          Query Automated Telephone Response System                               49 (92%)       Immediate

          Speak by Telephone with Local Caseworker                                47 (87%)       1 to 2 Days

          Make Appointment with Local Caseworker                                  41 (77%)       1 to 2 Days

          Leave Internet Electronic Mail Message                                  24 (45%)       1 to 2 Days

          Query Through Database Internet Website                                 13 (25%)       Immediate
          Response Time Frame based on the most common responses of States.


        Most States also report current or planned use of some form of automated telephone
        response system, often linked to the State’s customer service call center. Through
        these automated systems, parents may first access information stored in SDU
        databases, such as the last date a payment was received on a case, and are able to
        transfer to a customer service representative to inquire about more detailed matters. In
        many States, local caseworkers are also available to answer payment inquiries by
        phone (47) and in person (41). However, managers report that this type of local service
        will not be as immediate as call center service. Several States also report current or
        planned use of the Internet to enhance customer service and parental access to
        payment information.

Managers Report Use of Performance Indicators to Monitor State Disbursement Units,
Primarily Focusing on the Timeliness of Processing

        Forty-seven States report current or planned use of performance indicators to help
        monitor and evaluate SDU payment processing. These performance indicators mostly
        provide information about the timeliness of child support disbursements, and the ability


SDUs: State Implementation Progress                        6                                      OEI 06-00-00040
        of the SDU to limit undistributed payments. For example, 39 States report current, or
        planned, tracking of the elapsed time between receipt of each payment and
        disbursement to custodial parents, and 35 of these will further compute and track the
        percentage of payments processed within two business days (Table 3). These
        measures may be used to gauge the overall effectiveness of their SDU, as well as to
        help detect procedural weaknesses and forecast staffing needs.

        Thirty-five States track how long it takes to research previously unidentified payments.
        When SDU automated systems are unable to initially match a payment to a case, staff
        must research any information provided with the payment, such as a return address on
        an envelope. Staff typically search a number of available databases, and may call
        employers to obtain additional identifying information. Many research items are
        matched during the same processing cycle, allowing payments to be identified and
        disbursed within two business days. Many States also track the amount (34) and
        number (32) of their SDU’s undistributed payments. The number of undistributed
        payments on a given day may assist supervisors in adjusting the workload of research
        staff, while the dollar amount of undistributed payments may serve as a better indicator
        of the overall impact on families.

                               Table 3: USE OF SDU PERFORMANCE INDICATORS

                                  Performance Indicator                       States

          Elapsed Time to Disbursements                                      39 (83%)

          Percent of Payments Disbursed Within 2 Business Days               35 (75%)

          Elapsed Time for Payment Research                                  35 (75%)

          Dollar Amount of Undistributed Funds                               34 (72%)

          Number of Undistributed Payments                                   32 (68%)
          Percentages based on the 47 respondents answering this question.


CHALLENGES TO EFFECTIVE OPERATION
        Many people familiar with child support enforcement expected that as SDUs were
        developed and implemented, States would encounter problems coordinating with
        payers (employers and noncustodial parents) and other entities involved in payment
        processing. Stakeholders also anticipated problems in transferring a large number of
        cases from local payment processing to a centralized, automated system. SDU
        program managers report that their SDUs have encountered a variety of problems,
        especially during the early phases of implementation. Managers indicate difficulties
        continue to exist in some areas, but the severity of most problems has diminished over
        time.

Coordinating with Employers and Parents

        Many SDU managers report experiencing problems in communicating with and
        receiving responses from noncustodial parents and employers during their initial startup
        phase (Table 4).9 For example, many payers reportedly did not redirect their payments
        to the newly centralized system upon initial notification, causing disbursement delays.



SDUs: State Implementation Progress                           7                     OEI 06-00-00040
        States which had this problem at startup continue to struggle with payer coordination,
        but the severity of the problem is perceived to have decreased after startup. SDUs
        must continue to collaborate with payers, especially regarding changes in employment
        and income withholding orders.

                        Table 4: SDU PROBLEMS IN COORDINATING WITH KEY PLAYERS

                                                                       States with         States with
                                                                         Startup           Continuing            Severity of
           Problems with Payers                                         Problems            Problems             Problem*

           Getting checks mailed to SDU by parents                       24 (67%)            21 (60%)           Decreased   34%

           Coordinating with employers                                   22 (61%)            20 (57%)           Decreased   26%

           Notifying employers and parents of changes                    20 (56%)            17 (49%)           Decreased   38%

           Problems with Other Entities

           Securing necessary funding                                    17 (49%)            19 (54%)           Increased   35%

           Coordinating with clerks of court                             14 (39%)            12 (34%)           Decreased   23%

           Gaining necessary state legislative authority                 14 (40%)             6 (17%)           Decreased   50%

           Negotiating terms with contractors                            13 (37%)            12 (34%)           Decreased   10%

           Coordinating with local child support offices                 13 (37%)             7 (20%)           Decreased   63%
           Percentages based on the number of respondents to each question.
           * Using State responses regarding the severity of each problem. Percentages reflect a weighted scale based upon State
           description of problems as major, moderate, or minor, during and after startup. See Appendix A.


Coordinating With Other Entities

        SDU implementation required State child support agencies to collaborate with their
        State legislatures in gaining necessary funding and authority for SDU operations.
        Implementation often also brought new participants, such as contractors, into child
        support payment processing, and substantially changed the responsibilities of others.
        Some SDU managers report experiencing problems in coordinating with these entities.
        Coordination problems are generally reported to have decreased after initial
        implementation, although negotiations with contractors and collaboration with clerks of
        court continue to cause concerns for several States. Interestingly, securing adequate
        funding is the only problem that managers report has increased in severity after startup.
        Managers suggest that initial SDU funding requests may have underestimated SDU
        staffing and funding needs, with managers only realizing all associated costs after
        operating their SDU for a period of time. Some managers report involving all key
        players in the initial planning stages for an SDU, and many formed work groups made
        up of representatives from local child support offices, clerks of court, and employers.
        These work groups discussed potential problems, and were often given the opportunity
        to influence the design of SDU operations based on their needs and concerns.




SDUs: State Implementation Progress                            8                                                  OEI 06-00-00040
Poorly Labeled Payments

        Thirty States report continuing problems with identifying payments that are poorly or
        incorrectly labeled by payers (Table 5). To allow automated procedures to match a
        payment to a case, payments processed through SDUs must include identifying
        information about the case, such as a case number, so the payment can be correctly
        applied. Managers report that when centralized processing first started, many payments
        omitted needed information or contained inaccurate information, possibly because
        payers had not previously been required to submit this information with each payment.
        When previously processed through local offices, staff often could correct payer errors
        or omissions. However, automated SDU systems are not designed for such
        individualized processing. To reduce the number of payments with incomplete or
        inaccurate case information, some States provide employers and noncustodial parents
        with remittance notices or billing statements that may be returned with each payment,
        similar to those used by credit card companies to ensure payments are posted to the
        proper account. However, because child support is sometimes paid weekly or by pay
        period, instead of once a month, the use of remittance notices is more complicated.
        Many States also make additional efforts to educate payers about what information
        must be included with each payment to ensure proper posting. While managers report
        some improvements in payment labeling, the severity of this problem appears not to
        have declined substantially after startup.

Lack of Automated Case Information

        A related problem involves receiving payments for which no case information exists in
        the SDU’s database. At startup, managers in some States report this occurred because
        the database used by SDUs was not yet fully populated with information from local
        clerks of court or child support offices. States report making significant conversion
        efforts to get all local information into the SDU database prior to centralization. Most
        States that converted or transferred case information from local entities to the SDU
        either set up an automated data merge, or created manual procedures in which staff
        worked at local offices to record case information, and entered that data into the SDU
        database. Managers report that both methods had inherent problems that allowed
        some cases to be missed or improperly converted. Conversion was reportedly more
        difficult in some States that maintain separate processing systems for non-public
        assistance cases, because staff had to make decisions about which cases should be
        converted and which should remain for local processing. Beyond conversion, case
        information may be absent from SDU databases because of delays in entering new
        case information. Many SDUs rely on local staff and clerks of court to add new cases to
        the system, yet managers report payments are sometimes received before data entry
        occurs. Disbursement of these payments may be delayed until case information is
        added to the database. A number of States report that getting new case information
        into the SDU database continues to be a challenge.

Payments Mailed to the Wrong Location

        At startup, States used a variety of methods to notify payers where and when to begin
        sending payments to the SDU rather than to a local jurisdiction. However, managers
        report that many payers initially failed to make this change, and States had not
        prepared sufficiently to handle misdirected payments. Some States implemented




SDUs: State Implementation Progress            9                                    OEI 06-00-00040
        procedures to continue to process misdirected payments locally, while others forwarded
        them to the SDU. However, each of these methods had the potential to delay
        disbursements to families. Managers also report that instead of processing misdirected
        payments or forwarding them to the SDU, a few local entities returned payments to
        payers, causing more extensive delays in disbursement. While managers from 21
        States report that processing payments mailed to the wrong location continues to pose
        problems for their SDU, the severity of this problem appears to decline considerably
        after startup.

                                         Table 5: SDU OPERATIONAL PROBLEMS

                                                                       States with          States with
                                Problem                                 Startup             Continuing            Severity of
                                                                        Problems             Problems              Problem*

         Identifying poorly labeled payments                             28 (78%)             30 (86%)           Decreased   9%

         Identifying payments with no case in system                     27 (75%)             30 (86%)           Decreased 20%

         Re-directing payments mailed to wrong place                     26 (72%)             21 (60%)           Decreased 34%

         Meeting customer service demands                                26 (72%)             25 (71%)          Decreased    21%

         Securing, training and retaining staff                          22 (61%)             21 (60%)          Decreased    30%

         Disbursing support within 2 business days                       19 (53%)             11 (31%)          Decreased    64%

         Predicting volume for staffing purposes                         18 (50%)             14 (40%)          Decreased    37%

         Monitoring SDU performance                                      14 (39%)             11 (34%)          Decreased    33%
         Percentages based on the number of respondents to each question.
         * Using State responses regarding the severity of each problem. Percentages reflect a weighted scale based upon State
         description of problems as major, moderate, or minor, during and after startup. See Appendix A.


Customer Service Demands

        Managers primarily identify responding to inquiries and complaints as a startup
        problem, but customer service demands continue to challenge many States.
        Implementation of SDUs often changed the method through which States respond to
        inquiries and complaints regarding payments. These questions and complaints primarily
        come from parents, but may also be raised by other entities, such as local child support
        offices or employers. States appear to have experienced a high demand for customer
        service response at startup, due to confusion and delays caused by changes in
        payment procedures. Managers in 26 States report that meeting customer service
        demands was a problem at startup. For most of these States, meeting customer service
        demands continues to be a concern even after fully implementing their SDU, although
        the severity of the problem has diminished somewhat. States that experienced initial
        difficulty in meeting customer service needs report increasing staff and streamlining
        methods for responding to calls. They also focused on timely payment processing,
        reasoning that a more successful system would reduce the likelihood of inquiries and
        complaints. Many States also appear to use performance indicators to evaluate the
        customer service process, such as tracking the average time customers wait on hold
        during a call to the centralized customer service center. Others have conducted surveys




SDUs: State Implementation Progress                            10                                                  OEI 06-00-00040
        of parents and employers to help anticipate ongoing needs and continue to conduct
        outreach to ensure that customers are informed about service options and points of
        contact.

Staffing Issues

        About half of States with operating SDUs report problems with securing, training and
        retaining staff, and with accurately predicting payment volume in order to project
        staffing needs. Ensuring adequate staffing of SDUs is sometimes problematic because
        the jobs are typically not high paying, the duties are somewhat monotonous, and the
        work hours can be unusual. For instance, some SDUs have shifts beginning at 3 AM,
        while others operate on both Saturday and Sunday. Because training new staff is
        reportedly costly and time-consuming, and experienced workers make fewer errors in
        processing payments, managers report a variety of efforts to keep their employees
        motivated, such as providing performance incentives. Predicting payment volume can
        be difficult because of day-to-day variation in the number of payments received. Some
        days, such as most Mondays and days just after the first of the month, have typically
        high volume because of the timing of employer pay periods, but even volume on these
        days may vary.

STATE ASSESSMENTS OF DISBURSEMENT UNITS
Overall Assessment

        Based on monitoring and experience, program managers in a majority of the 38 States
        which report they have fully implemented SDUs perceive that centralized processing
        has resulted in improvements on each of seven performance indicators (Figure 2).
        While some managers report that centralization immediately resulted in improvements,
        others feel that their State realized improvements only after startup problems were
        resolved. Managers in over 60 percent of States with operating SDUs cite
        improvements in payment processing speed, service to both custodial and noncustodial
        parents, and in minimizing the burden on employers.

Payment Processing Speed

        Most managers believe their fully-implemented SDUs have improved payment
        processing speed, and nearly all report disbursing payments within two business days.
        The highest number of managers (27) report SDU implementation has resulted in
        improvements in payment processing speed, but a third of these (9) report they did not
        realize improvements in timeliness until after their initial startup period. In fact, 34
        managers report their SDU currently meets or exceeds the requirement to disburse
        child support payments within two business days, and 15 States report that, on
        average, payments are disbursed within only one business day of receipt. Some States
        achieve this performance by including tougher processing and disbursement time
        standards upon contractors.




SDUs: State Implementation Progress            11                                   OEI 06-00-00040
                                Figure 2: PERCEIVED IMPROVEMENT RESULTING FROM
                                               SDU IMPLEMENTATION

                   PAYMENT PROCESSING SPEED                         18                        9                  7               1

               SERVICE TO CUSTODIAL PARENTS                          18                       5            4         5

          SERVICE TO NONCUSTODIAL PARENTS                          16                     5            6             5

                         BURDEN ON EMPLOYERS                   14                     6                    10                    1

                      UNDISTRIBUTED PAYMENTS                   14                 4               7                  6

                OVERALL COST OF OPERATIONS                    11             5                    9                      4

                      TRACKING CASE ACTIVITY                   12             3                       11                     2

                                                 0%      10% 20% 30% 40% 50% 60% 70% 80% 90% 100%

                                                Better     Better, Following Startup          Little Difference              Worse

          Responses of 38 States reporting fully-implemented SDUs.
          Percentages based on the number of responses to each question.




Service to Parents

        About two-thirds of managers believe their fully-implemented SDUs have improved
        service to parents. A concern of many familiar with child support enforcement is that
        customer service to parents might suffer due to centralized payment processing, but
        Staff who process payments in local child support and clerks of court offices often know
        many parents, have direct access to payment information and, reportedly, often provide
        highly personalized service. Managers report that some local staff use this case
        knowledge to identify poorly-labeled payments and to assist parents in dealing with
        situations of payment delays, job changes, and needs for new income withholding
        documents. Some are concerned that customer service might suffer because
        automated systems are not designed for such individualized case management.

        However, survey responses indicate that most State managers who compared
        customer service before and after SDU implementation believe their fully-implemented
        SDUs have improved service to parents. Among States reporting improvements, at
        least a quarter note that improvement was realized only after the startup period,
        possibly because parents needed to become accustomed to new systems and points of
        contact.




SDUs: State Implementation Progress                      12                                                     OEI 06-00-00040
Burden on Employers

        About two-thirds of managers believe fully-implemented SDUs ease the burden on
        employers, yet some perceive their SDU has made little difference to employers. One
        of the primary objectives of centralization is to ease the burden on employers in
        complying with income withholding orders by providing them with a single place to send
        payments in each State. While SDU managers in 20 States with operating SDUs
        believe centralization has eased the burden on employers, managers from 10 States
        perceive their SDU implementation had little effect on employers. In States only
        processing the Federally-specified caseload through their SDU, managers explain that
        employer burden may not decrease since only a portion of their employees’ cases are
        centralized. These systems require employers to send payments to “one more place,
        instead of only one place” as one manager said. Other managers express a belief that
        sending payments to a number of addresses was not particularly burdensome on
        employers, and thus, centralization may have had little effect.

Undistributed Payments

        While more than half of managers believe undistributed payments have decreased
        since their SDU was fully-implemented, some report increases in undistributed
        payments. Managers in 18 States believe their SDU has helped minimize undistributed
        payments relative to previous local processing. However, six managers perceive their
        SDUs have contributed to increases in undistributed payments. Based on tracking,
        managers report that because of the large number of unidentifiable payments when
        States first centralize processing, undistributed payments tend to increase at startup,
        then decline as payments are identified through research. In some States, SDU
        managers indicate they could not divert sufficient staff from payment processing to
        researching unidentified payments, especially during the early weeks of centralized
        processing.

SUMMARY
        A majority of States are currently processing payments centrally and all but one of the
        remaining States plan to implement their SDU by 2001. SDUs appear to have helped
        States improve program operations by taking advantage of the efficiencies of
        automated processing of a large number of payments on a daily basis. Most States
        report they are meeting the Federal requirements by disbursing the vast majority of
        payments within two business days, providing employers with a single location to mail
        income withholding payments, and providing parents with ready access to payment
        information. However, almost all States report experiencing significant difficulties during
        the early stages of their SDU implementation, and many States have yet to realize all
        the program improvements potentially attainable through centralized payment
        processing.

        In conducting this study, our objective was to systematically gather information about
        the perceptions and experiences of SDU program managers so it could be shared
        among all States as they cope with the new centralization requirements. We hope this
        report will be useful to policy makers and State administrators as they implement and
        refine their SDUs.


SDUs: State Implementation Progress             13                                    OEI 06-00-00040
        We offer further analysis and recommendations about SDUs, their implementation,
        problems encountered, potential solutions, and keys to successful operations, in our
        companion report, States Disbursement Units: Sharing the Implementation Experiences
        of Six States, OEI 06-00-00041.

AGENCY COMMENTS

        The Administration for Children and Families (ACF) agreed with the findings and
        conclusions presented in these two reports. ACF concurred with each of the
        recommendations directed to OCSE and recounted its efforts to assist States with SDU
        implementation. ACF also expressed a desire to collaborate with the OIG in quickly
        disseminating to States the information provided in these reports. ACF comments are
        provided in their entirety in Appendix B.




SDUs: State Implementation Progress          14                                 OEI 06-00-00040
                                       ENDNOTES

1.Social Security Act, Title IV-D, SEC. 454B [42 U.S.C. 654b].

2.The required caseload includes all public assistance cases, plus non-public assistance cases
requesting services and those cases with income withholding ordered on or after January 1,
1994.

3.OCSE Action Transmittal 00-03, January 19, 2000.

4.States can receive enhanced FFP at 80 percent for some of their PRWORA-related
expenses. If a State has not already used all of their enhanced funds, SDU development costs
could be matched at the higher rate, but operational costs are limited to 66 percent.

5.Hereafter, this report groups the District of Columbia, Puerto Rico, and the Virgin Islands with
the 50 States.

6.We interviewed local Clerks of Court in Arizona, Florida, Iowa, Pennsylvania, and
Tennessee. In Minnesota, we interviewed local child support office staff.

7.Indiana, South Carolina, and Wyoming received Federal waivers to link local disbursement
units.

8.Arkansas, Georgia, Kentucky, and Oklahoma report their SDUs are centrally processing
payments of many cases, but have yet to include a significant portion of the Federally-required
caseload. Michigan and Nevada were granted extensions to implement their SDU by October
1, 2000 and October 1, 2001, respectively. Alabama, California, Kansas, Nebraska, Ohio, and
Texas report they have not yet begun centralized payment processing.

9.We did not specify a time frame for startup in our survey. We estimate State respondents
may have considered “startup” to last between three and twelve months, depending upon
whether they implemented their SDU all at once or incrementally.




SDUs: State Implementation Progress            15                                    OEI 06-00-00040
APPENDIX A                                                                                                                                A-1

 Table A-1: PROBLEMS COORDINATING                           Startup Problems                      Continuing Problems
 WITH PAYERS AND OTHER ENTITIES                                                                                                   Severity
                                                  Total     Major   Moderate    Minor    Total     Major   Moderate     Minor    Of Problem

 Getting checks mailed to SDU by parents           24         5        10         9          21      0         8          13     Decreased 34%

 Coordinating with employers                       22         9        6          7          20      3         8          9      Decreased 26%

 Notifying employers and parents of changes        20         7        8          5          17      2         5          10     Decreased 38%

 Securing necessary funding                        17         2        10         5          19      6         11         2      Increased 35%

 Coordinating with clerks of court                 14         6        4          4          12      4         3          5      Decreased 23%

 Gaining necessary State legislative authority     14         3        6          5          6       2         3          1      Decreased 50%

 Negotiating acceptable terms with                 12         1        7          4          12      0         7          5      Decreased 10%
 contractors

 Coordinating with local child support offices     13         1        4          8          7       0         0          7      Decreased 63%


Tables A-1 and A-2 present SDU program manager responses about problems encountered during startup stages of SDU implementation, as well as
continuing problems. Respondents ranked problems as major, moderate or minor. To allow comparison between these time periods, we gave a
numerical value to each degree of problem. As shown in the example below, we gave the response “major problem” a value of 3, “moderate
problem” a value of 2, and “minor problem” a value of 1. We then summed the values for each time period, subtracted the value of the continuing
period from value for the startup period, and calculated a percentage decrease (or increase) in perceived severity of each problem.

EXAMPLE: Getting Checks Mailed to SDU by Parents

Startup Problem                                  Continuing Problem
Major Problem:           5 States x 3 = 15             Major Problem:           0x3= 0
Moderate Problem:       10 States x 2 = 20             Moderate Problem:        8 x 2 = 16
Minor Problem:           9 States x 1 = 9              Minor Problem:          13 x 1 = 13
Total Value:                    44                                              29

Percent Change:                 44 - 29 = 15              15/44 = 34% Decrease
APPENDIX A                                                                                                                      A - 2



Table A-2: OPERATIONS PROBLEMS                        Startup Problems                   Continuing Problems
                                                                                                                        Severity
                                              Total   Major   Moderate   Minor   Total    Major   Moderate     Minor   Of Problem

Identifying poorly labeled payments            28      10        7        11      30        7         6         17     Decreased 9%

Identifying payments with no case in system    27      12        3        12      28        3         9         16     Decreased 20%

Redirecting checks mailed to the wrong         26      7         10        9      21        2         8         11     Decreased 34%
location

Meeting customers service demands              26      13        5         8      25        6         8         11     Decreased 21%

Securing, training and retaining staff         22      6         10        6      21        1         8         12     Decreased 30%

Meeting the 48 hour disbursement               19      3         8         8      8         1         2          5     Decreased 64%
requirement

Predicting payment volume for staffing         18      4         4        10      14        0         5          9     Decreased 37%
purposes

Monitoring the performance of the SDU          14      3         4         7      11        2         1          8     Decreased 33%
APPENDIX B   B - 1

APPENDIX B                                                       B-2

COMMENTS OF THE ADMINISTRATION FOR CHILDREN AND FAMILIES ON THE

OFFICE OF INSPECTOR GENERAL'S DRAFT REPORTS: "CHILD SUPPORT

ENFORCEMENT STATE DISBURSEMENT UNITS, STATE IMPLEMENTATION

PROGRESS" (OEI-06-00-00040) AND "CHILD SUPPORT ENFORCEMENT STATE

DISBURSEMENT UNITS, SHARING THE IMPLEMENTATION EXPERIENCES OF SIX

STATES" (OEI-06-00-00041)


The Administration for Children and Families (ACF) does not

disagree with the findings and conclusions of these two draft

reports. ACF welcomes the efforts of the Office of Inspector

General to examine this critical area of activity. These reports

-- especially the one that recounts the experiences of six States

-- may be directly helpful to those States that have not yet

completed the implementation of their State Disbursement Units

(SDUs). ACF intends to cooperate with the OIG in disseminating

these reports to the States as soon as they are available in final

form, in the expectation that the sooner States have an

opportunity to review the reports and incorporate their

experience, the greater is the likelihood that they will be able

to benefit from the reports' findings.


The Office of Child Support Enforcement (OCSE) within ACF has

worked extensively with both States and employers to assist in the

implementation of SDUs. This work has been done by Central Office

staff and, to a large extent, by Regional Office staff. For

example, OCSE has administered several technical assistance

efforts to improve SDU operation. Workshops -- often featuring

State representatives -- were held at conferences to discuss State

implementation issues. A technical assistance guide, developed

with the assistance of both Federal and State staff, was

distributed to all the States. The guide focused on critical

considerations in planning an SDU, and in preparing a Request for

Proposal for centralized processing of child support payments. 


In addition, ACF maintains a matrix of SDU program and system

contacts. The matrix includes such data as "contact" information

as well as the status of each State SDU and whether the function

is performed by the State or contracted out. This information is

distributed to all States and displayed on the OCSE website. 


The employer services staff within OCSE works directly with

national employer groups to assist States and to resolve SDU-

related problems, and they work directly with Federal agency

payroll officials, as described below in response to the

recommendation regarding Federal government payers.

APPENDIX B                                                         B-3

OIG Recommendations


OCSE Should Collaborate With States to Encourage Federal

Government Payers to Improve Payment Labeling and Submission

Practices. SDU managers in focus States cite particular

difficulties processing checks issued by Federal agencies. They

report Federal checks often contain inadequate or confusing

information, are sometimes sent to the wrong location, and may be

submitted too early to allow proper disbursement to custodial

families. OCSE should collaborate with States in communicating

and working with Federal employers to overcome these problems.


ACF Response


ACF agrees with this recommendation. ACF is planning a

publication that will add to its ongoing activities to improve

federal check labeling and processes to assist State SDUs. A

number of Staff of the Office of Child Support Enforcement (OCSE)

within ACF have provided technical assistance to SDUs through the

Federal Agency Initiative. The Federal Agency Initiative at OCSE

is an effort to respond to SDUs' requests for help. They are

asking for help both in re-directing child support payments from

Federal agencies, and in identifying the payer or the case with

which Department of the Treasury child support payments (paper

checks) should be associated.


ACF is completing a publication entitled Working with Federal

Agencies as Employers, which will be sent to all States. This

publication will include detailed information on sending income

withholding orders to Federal agencies, re-directing child support

payments from Federal agencies to SDUs, identification of Treasury

checks, and moving toward electronic child support payments

(EFT/EDI).


ACF's activities on behalf of States and their SDUs have included

the following specific Federal agency efforts:


Defense Finance and Accounting Service or DFAS:


OCSE negotiated with DFAS to name two points-of-contact within the

DFAS Garnishment Department for States to contact for re-direction

of all DFAS child support payments (and spousal support if

appropriate) to SDUs. This information was sent to all States in

a Dear Colleague Letter dated April 26, 2000.


In addition, OCSE worked out a process for re-direction of DFAS

(and other Federal agency) child support payments to SDUs as

follows:

APPENDIX B                                                      B-4

DFAS sends the State a file of all child support payments

currently being sent to that State. The State reviews the file to

make certain that each payment should indeed be re-directed to the

SDU. This also gives the State an opportunity to make changes

(e.g., to the case ID by adding a FIPS code or other county

identifier to the payment record).

The State returns the file to DFAS, and DFAS makes the necessary

changes to re-direct the child support payments to the SDU.


Social Security Administration (SSA) and Department of the

Interior


OCSE worked with the Social Security Administration (SSA) to re-

direct its employees' child support payments to SDUs. Payroll for

SSA is handled by the Department of the Interior. Re-direction of

child support payments (and spousal support where appropriate)

from SSA employees was completed on February 23, 2000. 


OCSE has also been working with staff at the SSA Beneficiary

Garnishments Operations, who have the responsibility for re-

direction of beneficiaries' garnishment child support payments. 

SSA designated a contact at each of the eight payment processing

centers for States to work with in re-direction of SSA beneficiary

garnishment payments to SDUs.


U.S. Postal Service (USPS): 


OCSE has worked closely with the USPS as it re-directs child

support payments to the SDUs. As a result, the USPS has begun a

pilot project to send child support payments electronically via

electronic funds transfer/electronic data interchange (EFT/EDI) to

eight SDUs.


Department of the Treasury


OCSE worked with the Department of Treasury's Financial Management

Service (FMS) to produce a memo, issued in March 2000, reminding

Federal payroll agencies to include certain standard identifying

data elements on the child support payments they prepare. This is

an effort to reduce the number of unidentified Treasury checks

(which sometimes become undistributed collections).


OIG Recommendation


OCSE Should Provide Additional Technical Assistance to States to

Aid in the Transmission of Payments for Interstate Cases. SDU

managers in focus States report unique difficulties in processing

payments for interstate cases, particularly SDUs being unaware

that obligors have cases in other States and the lack of any

standard procedures for transferring money and payment information

between States. OCSE should further assist States in developing

APPENDIX B                                                         B-5

new solutions or using available technologies to share case

information between States, and help develop and implement

uniform, automated standards for transferring money and payment

information.


ACF Response


ACF agrees that additional technical assistance is needed by

States and their SDUs, and has plans in place to provide

additional assistance. These plans include the dissemination of

these OIG reports, especially the Six State report, and the

conduct of national technical assistance activities on this

subject, for the benefit of State staff who manage and oversee

SDUs. OIG staff will be invited to participate in these

activities, to present on the information and conclusions of these

reports, to discuss the lessons these reports offer, and to

respond to questions from the field. Moreover, ACF will begin

working with representatives of State SDU's to identify specific

issues requiring technical assistance.


OIG Recommendation


To Help States Meet the Congressional Goal of Providing Employers

With a Single Location in Each State to Send all Child Support

Payments, OCSE Should Consider Proposing Legislation to Provide

States with Federal Matching Funds to Centrally Process Payments

for Income Withholding Cases Created Prior to 1994. As detailed

above, there are numerous benefits to payers and the State when

all income withholding orders are processed centrally. 

Additionally, providing employers with a single location to send

payments was a primary objective of Federal law. Federal matching

funds are currently not available for non-public assistance income

withholding cases created prior to 1994. In response, some States

are still processing these cases locally. This requires employers

to continue sending payments to multiple locations, and managers

in focus States report that it also causes confusion among payers,

local offices and SDUs.


ACF Response


ACF acknowledges that providing   employers with a single location

to which payments would be sent   was a central objective of Federal

policy when the SDUs were first   required by law. ACF will

consider this recommendation of   the OIG as it develops the next

President's Budget and the next   set of legislative proposals.

